EPA's Changing Budget Process: Opportunity for
Improved Financial Management
                EPA Office of Inspector General
                EPA's Changing Budget Process: Opportunity for
                Improved Financial Management
                                                   #6100300


                                   TABLE OF CONTENTS

 •   EXECUTIVE SUMMARY
 •   CHAPTERS
       o Chapter 1
             INTRODUCTION
             Purpose
             Background
             Scope and Methodology
             Prior Audit Coverage
       o Chapter 2
             EPA HAS AN OPPORTUNITY TO MAKE NEEDED IMPROVEMENTS IN BUDGET
                PROCEDURES
             Regional Personnel Resource Budgets Did Not Always Reflect Planned Use
             Reprogramming Errors Diminished the Usefulness of Program Information
             Regional Personnel Costs Were Inaccurately Accumulated
             Usefulness of EPA's Budget Structure Is Hampered by Inconsistencies
             Delegation of Performance Accountability and Employee Buy-in Are Critical to PBA
                System Success
             The Budget Division Lacked Documentation to Support Congressional Notification of
                Agency Reserve for Contingencies
             Conclusion
             Recommendations
             Agency Comments and OIG Evaluation
       o ATTACHMENTS
             ATTACHMENT 1: Fiscal 1994 Reprogrammings Greater than $500,000
             ATTACHMENT 2: Fiscal 1995 Reprogrammings Greater than $500,000
       o APPENDICES
             APPENDIX I: Prior Audit Coverage
             APPENDIX II: Agency Comments
             APPENDIX III: Abbreviations
             APPENDIX IV: Distribution
